Supreme Court, U.S.
FILED

WAIVER

AUG 2 8 2020
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

20-5313

Melquan Tucker

v.

New York

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
[1 There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

New York State Office of the Attorney General (Intervenor in state-court proceedings)

0 I am a member of the Bar of the Supreme Court of the United States.
ID I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member.
Signature
Date-

August 27, 2020

(Type or print) Name

Dennis A. Rambaud
Mr.

Firm

0 Mrs.

ID Miss

New York State Office of the Attorney General

Address

28 Liberty Street

City & State
Phone

❑ IVLs.

New York, New York

212-416-8871

Zip
Email

10005

dennis.rambaud@ag.ny.gov

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Erin Kulesus, Legal Aid Bureau of Buffalo; Thomas Brandt, Niagara Cty. D.A.'s Office

RECEIVED
SEP - 8 2020
OFFICE OF THE CLERK
SUPREME COURT, U.S.

